%

Mnxitb States (Hmtrt xA JVppEafe
For the Seventh Circuit
Chicago, Illinois 60604
Submitted January 12, 2021
Decided January 25, 2021
Before
DIANE S. SYKES, Chief Judge
FRANK H. EASTERBROOK, Circuit Judge

No. 20-3091
ROBERT WASHINGTON,
Petitioner-Appellant,

v.
DAVID GOMEZ,
Respondent-Appellee.

Appeal from the United States District
Court for the Northern District of Illinois,
Eastern Division.
No. l:12-cv-10236
Andrea R. Wood,

Judge.
ORDER

Robert Washington has filed a notice of appeal from the denial of his petition
under 28 U.S.C. § 2254, which we construe as an application for a certificate of
appealability. This court has reviewed the final order of the district court and the record
on appeal. We find no substantial showing of the denial of a constitutional right.
See 28 U.S.C. § 2253(c)(2).
Accordingly, the request for a certificate of appealability is DENIED.
Washington's motion for appointment of counsel is DENIED.

■'i

Case: l:12-cv-10236 Document#: 83 Filed: 09/25/20 Page 1 of 22 PagelD#:4373

A
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
ROBERT WASHINGTON (#M06106),
Petitioner,
v.
DAVID GOMEZ, Warden,
Stateville Correctional Center,
Respondent.

)
)
)
)
)
)
)
)
)
)

No. 12-cv-10236
Judge Andrea R. Wood

MEMORANDUM OPINION AND ORDER
Petitioner Robert Washington, a prisoner currently incarcerated at Stateville Correctional
Center, has brought this pro se habeas corpus action pursuant to 28 U.S.C. § 2254, challenging
his 2008 murder conviction in the Circuit Court of Cook County. For the reasons stated below,
the Court denies Washington’s amended § 2254 petition on the merits and declines to issue a
certificate of appealability.
FACTUAL BACKGROUND
State court factual findings have a presumption of correctness, and Washington has the
burden of rebutting the presumption by clear and convincing evidence. Brumfield v. Cain, 576
U.S. 305, 322 n.8 (2015) (citing 28 U.S.C. 2254(e)(1)). Washington has not made such as
showing. And so the Court draws the following factual history from the state court record. (Dkt.
No. 72.)
Washington shot and killed Ricky Carpenter on the afternoon of September 17, 2006, in
the first floor hallway of Carpenter’s apartment building in the Back of the Yards neighborhood
on the southside of Chicago. Illinois v. Washington, No. 1-09-1817, 2011 WL 9693712, at *l-*2

Case: l:12-cv-10236 Document #: 83 Filed: 09/25/20 Page 2 of 22 PagelD #:4374

(Ill. App. Ct. Apr. 25, 2011) (“Direct Appeal”). There was no dispute at trial that Washington
shot and killed Carpenter; the only question was whether Washington acted in self-defense.
In addition to Washington and Carpenter, four other individuals were present that day.
Karen Johnson and Vivian Shields, each of whom rented apartments in the building, had gone
with Washington to the grocery and liquor stores earlier in the day. Id. at *1. Upon returning
home, the group hung out talking in front of the apartment building. Id. A third woman, Mignon
Boswell, joined the group in front of the building. Id. Boswell was the victim’s girlfriend, and
they lived together in the building. Id.
Washington made sexual comments to the women, telling Shields that he liked her
breasts and Boswell that he wanted to have sex with her. Id. This angered Carpenter, who
overheard Washington’s comments towards his girlfriend. Id. Washington and Carpenter began
arguing, and Carpenter threw beer in Washington’s face. Id. Carpenter also picked up a nearby
crate and threatened to “bust” Washington’s face. Id. The women separated the men, and
Boswell took Carpenter back upstairs to their apartment. Id. Shields, who testified at
Washington’s trial, stated that she did not see Washington possess a gun either while they were
shopping or during the initial confrontation. Id.
Unfortunately, separating the men did riot defuse the situation. Washington remained
outside by the apartment building where he made a call on his cell phone. Id. Once he got off the
phone, he told Shields and Johnson that Carpenter was going to get “his ass whooped.” Id.
Washington then moved his car, which had been parked in front of the apartment building, away
from the building. Id. Shields, who remained in front of the building, later saw Washington walk
back towards the building after moving his car. Id.
2

Case: l:12-cv-10236 Document#: 83 Filed: 09/25/20 Page 3 of 22 PagelD #:4375

After taking Carpenter upstairs following the initial confrontation, Boswell called the his
sister, who, in turn, called his brother at approximately 3:00 p.m. Id. at *2. Carpenter’s brother,
who had been Washington’s friend for seven or eight years, came to the apartment building and
spoke to Washington once he returned from moving his car. Id. at *l-*2. The two men walked
together by the apartment building. Id. at *2. The brother’s arm was around Washington’s
shoulder when Carpenter came downstairs and started hollering at Washington. Id. at *2.
Washington looked back over his shoulder and warned Carpenter not to run up behind him. Id. at
*1.
Washington and Carpenter continued arguing as they entered the apartment building’s
first-floor hallway. Id. at *2. Carpenter’s brother followed behind the men into the hallway. Id.
Shields witnessed Washington pull out his gun shortly before the men headed into the hallway.
Id. She fled to Johnson’s apartment once she saw the gun. Id. She heard two gunshots but did not
see who fired the shots. Id. She did testify at trial, however, that Washington had the gun and that
Carpenter was unarmed. Id.
Carpenter’s brother testified at trial that he followed the men into the apartment hallway.
Id. In describing what happened next, he testified that Washington was armed with the gun while
Carpenter was unarmed. Id. Carpenter told Washington he did not care that he had a gun. Id.
Washington threatened to shoot Carpenter. Id. Washington then followed through on his threat
and shot Carpenter in his leg. Id. Carpenter stumbled and slumped against the hallway wall. Id.
Washington then shot Carpenter in the stomach. Id. A later autopsy showed that Carpenter was
not shot at close range. Id. at *3.

3

Case: l:12-cv-10236 Document #: 83 Filed: 09/25/20 Page 4 of 22 PagelD #:4376

The police and paramedics were called to the apartment building. Id. at *2. The
paramedics rolled Carpenter over to examine him for wounds. Id. He had a knife in his back
pocket. Id. Carpenter’s brother testified that was the first time he saw his brother with a knife. Id.
Washington was taken to the hospital where he died from the gunshot wounds. Id. at *3.
A Chicago police evidence technician arrived at the crime scene by 3:30 p.m. Id. at *2.
The technician recovered a stainless steel knife from the hallway floor. Id. The knife was found
approximately one foot from the blood on the floor, and there was no blood on the knife. Id.
Washington testified on his own behalf at trial. Id. at *3. He admitted that he made sexual
comments regarding Shields’ breasts and clarified that he told Boswell that he wanted to have
sex with her when they were younger. Id. Washington also agreed that Carpenter walked in on
the conversation and heard his comment to Boswell. Id. However, Washington claimed he
apologized to Boswell. Id. The apology did not defuse the situation, as Carpenter swore at him,
threw beer in his face, and picked up a crate and threatened to “bust” it in his face. Id.
Washington also testified that Carpenter said he would be right back after the initial
confrontation because he had “something” for Washington. Id.
Washington conceded that he did make a phone call after the initial confrontation, and
that following the call he told Johnson and Shields that his “boy” was on the way to kick the
victim’s ass. Id. He further agreed that he moved his car from in front of the apartment building
to around the comer out of concern that Carpenter might harm his car. Id.
Washington verified that Carpenter’s brother met him in front of the apartment building
and they started to talk. Id. Carpenter’s brother did put his arm around Washington, but
according to Washington, the brother turned around and said to someone, “Don’t run up on him
4

Case: l:12-cv-10236 Document #: 83 Filed: 09/25/20 Page 5 of 22 PagelD #:4377

yet,” while walking with his arm around Washington. Id. Washington said he pushed Carpenter’s
brother away and turned to see the victim standing in the apartment building doorway. Id.
Washington conceded he pulled out a gun from his pocket at that point. Id. He claims
Carpenter approached him in “sneak mode,” with a “shiny object pointing in [Carpenter’s] right
hand.” Id. at *4. Washington believed that Carpenter had a knife, so he fired his gun. Id.
Washington explained that he aimed the gun “at the floor” in an attempt to hit the victim
“anywhere below the waist” to stop him from advancing. Id. Washington conceded that
Carpenter was six to eight feet from him when Washington turned to see him. Id. Washington
also conceded that Carpenter was “not standing right up on him with the knife” and could not
have stabbed Washington when Washington shot Carpenter. Id. However, Washington said that
he feared for his life—both because Carpenter was advancing on him and because Carpenter’s
brother was standing next to him. Id. Washington expressed concern that Carpenter’s brother
might have held him while the victim approached. Id.
Washington fled after shooting the victim. Id. He admitted giving “quite a few stories” to
the police after his arrest but never told police the version to which he testified in court Id.
Washington explained that he denied shooting Carpenter when questioned by the police because
he did not trust the police. Id.
Washington was found guilty by the jury and sentenced to fifty years of imprisonment.
Id. at *5. He has completed his state direct appeal and collateral proceedings. Washington
initially filed a habeas corpus petition in this Court while his state-court proceedings were
pending. The Court stayed the present habeas corpus action until the state-court proceedings

5

Case: l:12-cv-10236 Document #: 83 Filed: 09/25/20 Page 6 of 22 PagelD #:4378

were complete. (Dkt. No. 12.) Washington then filed the present amended habeas corpus
petition. (Dkt. No. 34.)
DISCUSSION
I.

Claim One

Washington raises two allegations of ineffective assistance of counsel. The first involves
an investigative report that was improperly given to the jury. Following the jury verdict, the
prosecutor heard the jurors mention a witness statement in a police report. Direct Appeal, No. 109-1817, 2011 WL 9693712, at *5. This confused the prosecutor, as there was no witness
statement in a police report admitted into evidence and provided to the jury at trial. Id. The
prosecutor reviewed the exhibits tendered to the jury and found that an investigator’s report from
the Cook County Medical Examiner’s Office had been inadvertently attached to the post-mortem
examination report. Id. The post-mortem report regarding the autopsy of the victim had been
admitted into evidence. Id. The improperly attached investigator’s report included a statement by
the investigator that, “according to the Chicago Police Report, the subject and the offender were
V.

having a verbal altercation. The offender stated that he was ‘going to get a gun.’” Id. The state
appellate court rejected Washington’s argument that his attorney was ineffective for failing to
find the report before the autopsy report was tendered to the jury as an exhibit. Id. at *6.
Washington renews that ineffective assistance of trial counsel argument in his habeas corpus
petition.
The Court’s review of this claim is governed by the Antiterrorism and Effective Death
Penalty Act (“AEDPA”). Moreover, the Court’s review focuses on the state appellate court’s
opinion on direct appeal because that was the last state court to resolve the claim on the merits.
6

Case: l:12-cv-10236 Document #: 83 Filed: 09/25/20 Page 7 of 22 PagelD #:4379

See Harris v. Thompson, 698 F.3d 609, 623 (7th Cir. 2012) (citing Green v. Fisher, 565 U.S. 34,
40 (2011); Garth v. Davis, 470 F.3d 702, 710 (7th Cir. 2006)).
Under the AEDPA, the Court miay not grant habeas relief unless the state court’s decision
on the merits was contrary to, or involved an unreasonable application of, clearly established
federal law, as determined by the Supreme Court of the United States, or the state court’s
decision is based on an unreasonable determination of facts. 28 U.S.C. § 2254(d). “The
AEDPA’s standard is intentionally ‘difficult to meet.’” Woods v. Donald, 575 U.S. 312, 316
(2015) (per curiam) (quoting White v. Woodall, 572 U.S. 415, 419 (2014); Metrish v. Lancaster,
569 U.S. 351, 358 (2013)). This ‘“highly deferential standard [] demands that state-court
decisions be given the benefit of the doubt.’” Cullen v. Pinholster, 563 U.S. 170, 181 (2011)
(quoting Woodford v. Visciotti, 537 U.S. 19, 24 (2002)).
An ineffective assistance of counsel claim is governed by Strickland v. Washington, 466
U.S. 668 (1984). To demonstrate ineffective assistance of counsel, Washington must
demonstrate both deficient performance and prejudice. Premo v. Moore, 562 U.S. 115, 121
(2011) (citingKnowles v. Mirzayance, 556 U.S. Ill, 122 (2009)). The Court’s review under
Strickland is deferential, and applying Strickland under the AEDPA, which itself also requires
deference, results in a double level of deference to the state-court determination. Knowles, 556
U.S. at 123.
Washington cannot prevail on a “contrary to” argument because the state appellate court
properly set forth the controlling Strickland standard. Direct Appeal, No. 1-09-1817, 2011 WL
9693712, at *5. Similarly, the state appellate court’s rejection of Washington’s argument was not

7

Case: l:12-cv-10236 Document#: 83 Filed: 09/25/20 Page 8 of 22 PagelD #;4380

an unreasonable application of Strickland because Washington cannot demonstrate prejudice as a
result of the erroneous inclusion of the report.
To show prejudice, Washington must demonstrate, ‘“a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding would have been different.’”
Harrington v. Richter, 562 U.S. 86, 104 (2011) (quoting Strickland, 466 U.S. at 694). But there
was overwhelming evidence of Washington’s guilt to support the first-degree murder conviction.
As the state appellate court correctly recognized when rejecting this ineffective assistance of
counsel argument:
[T]he evidence of defendant’s guilt of first-degree murder was overwhelming
where: Mr. Carpenter testified defendant was the aggressor in the shooting; Ms.
Shields and Mr. Carpenter testified the victim was not holding a knife at the time
he was shot; Dr. Arunkumar testified there was no evidence of close range firing
in her examination of the gunshot wounds sustained by the victim; defendant '
testified during cross-examination that, at the time of the shooting, the victim was
not close enough to stab him; and defendant admittedly told the police “quite a
few stories” inconsistent with his trial testimony and initially falsely denied
shooting the victim.
Direct Appeal, No. 1-09-1817, 2011 WL 9693712, at *6. The state appellate court’s rejection of
Washington’s argument on this point was neither contrary to, nor an unreasonable application of,
Strickland.
Washington also raises as a second ineffective assistance of counsel argument that his
attorney was hostile to him in closing arguments by calling him an idiot, laughing about his
situation, vouching for Shields’s truthfulness, and referencing additional eyewitnesses. The state
appellate court rejected this argument on direct appeal, explaining its view that trial counsel was
attempting to concede Washington’s improper conduct while still arguing that he was not guilty
of first-degree murder. The state appellate court’s understanding of trial counsel’s strategy was a
8

Case: l:12-cv-10236 Document#: 83 Filed: 09/25/20 Page 9 of 22 PagelD #:4381

reasonable interpretation of the record. Defense counsel does appear to have been fronting
Washington’s improper actions in making sexual comments to the women and carrying a
firearm, in a hope that the jury would agree with him when he argued that Washington’s selfdefense claim should be believed. Moreover, as explained above, the evidence of Washington’s
guilt was overwhelming.
In short, both of Washington’s Strickland arguments were properly rejected by the state
appellate court on direct appeal. Claim One is thus denied.
II.

Claim Two

Washington next argues that the evidence was insufficient to support his first-degree
murder conviction, and instead, his conviction should be reduced to second-degree murder. The
state appellate court rejected this claim on direct appeal. Direct Appeal, No. 1-09-1817, 2011
WL 9693712, at *9.
For a second-degree murder conviction under Illinois law, the prosecution has the initial
burden of proving the defendant guilty of first-degree murder beyond a reasonable doubt. Id.
(citing Illinois v. Hawkins, 696 N.E.2d 16, 20 (Ill. App. Ct. 1998)). Once the state has met its
burden regarding first-degree murder, the burden shifts to the defendant to prove by a
preponderance of the evidence either of the following mitigating factors: (1) that the defendant
was acting under a sudden and intense passion resulting from serious provocation from the
victim; or (2) that the defendant had an unreasonable belief in the need for self-defense. Id.
To the extent Washington is challenging the sufficiency of the evidence supporting his
first-degree murder conviction, the Court applies a “twice-deferential standard.” Parker v.
Matthews, 567 U.S. 37, 43 (2012) (per curiam). First, the Court must defer to the verdict. “‘[I]t is
9

Case: l:12-cv-10236 Document #: 83 Filed: 09/25/20 Page 10 of 22 PagelD #:4382

the responsibility of the jury—not the court—to decide what conclusions should be drawn from
evidence admitted at trial.’” Id. at 43 (quoting Cavazos v. Smith, 565 U.S. 1, 2 (2011) (per
curiam)). “The evidence is sufficient to support a conviction whenever, ‘after viewing the
evidence in the light most favorable to the prosecution, any rational trier of fact could have
found the essential elements of the crime beyond a reasonable doubt.’” Id. at 43 (quoting
Jackson v. Virginia, 443 U.S. 307, 319 (1979)) (emphasis in original). Second, the Court defers
to the state-court ruling under the AEDPA. 28 U.S.C. § 2254(d).
Despite Washington’s protestations, however, there was sufficient evidence to support
the first-degree murder conviction. Multiple witnesses saw Washington and Carpenter get into a
verbal altercation. Washington returned armed with a gun. Carpenter’s brother witnessed
Washington shoot the victim, while a second eyewitness saw Washington with the gun and then
heard the gunshots. Both witnesses testified that Carpenter was not armed when Washington shot
him. In sum, the evidence at trial clearly provided sufficient support for Washington’s firstdegree murder conviction.
Washington’s remaining argument that the state court erred in not reducing his conviction
to second-degree murder presents a question of state law that is not cognizable in a federal
habeas corpus proceeding. See Estelle v: McGuire, 502 U.S. 62, 67 (1991); Davis v. Lemke, No.
12 C 1550, 2014 WL 562454, at *7 (N.D. Ill. Feb. 13, 2014). And even if the question of
whether the state court should have reduced Washington’s conviction to second-degree murder
were cognizable, the Court would still reject that claim, as there was overwhelming evidence to
support the first-degree murder conviction. For these reasons, Claim Two is denied as well.

10

Case: l:12-cv-10236 Document #: 83 Filed: 09/25/20 Page 11 of 22 PagelD #:4383

III.

Claim Three

With his third claim, Washington argues that his trial counsel was ineffective for failing
to call Carpenter’s girlfriend, Boswell, in support of his self-defense argument. The Illinois
Supreme Court has held that, “when self-defense is properly raised, evidence of the victim’s
aggressive and violent character may be offered for two reasons: (1) to show the defendant’s
knowledge of the victim’s violent tendencies affected defendant’s perceptions of and reactions to
the victim’s behavior; and (2) to support the defendant’s version of the facts where there are
conflicting accounts of what happened.” Direct Appeal, No. 1-09-1817, 2011 WL 9693712, at
*10 (citing Illinois v. Lynch, 470 N.E.2d 1018 (Ill. 1984); Illinois v. Nunn, 829 N.E.2d 796, 801
(Ill. App. Ct. 2005)) (internal quotation marks omitted). Illinois courts commonly refer to this
type of evidence as “Lynch evidence.”
Prior to trial, the trial court granted the prosecution’s motion in limine and precluded the
introduction of testimony regarding an incident occurring a week prior to the murder in which
Carpenter swung a frying pan and wielded a knife at a man attempting to crawl through a
window into his apartment. Direct Appeal, No. 1-09-1817, 2011 WL 9693712, at *10. Two
additional incidents were brought up before the trial court during consideration of the motion in
limine. An investigator interviewed Boswell in June 2007. Illinois v. Washington, No. 2015 IL
App (1st) 130064-U, 2015 WL 1514722, at *1 (Ill. App. Ct. Mar. 31, 2015) (“Post-Conviction
AppeaD). The investigator’s report from his interview detailed two potential Lynch evidence
items. Id. The first was that Carpenter beat Boswell for three days when they previously lived in
Atlanta. Id. Apparently, Boswell had explained to the investigator that Carpenter was “definitely

11

Case: l:12-cv-10236 Document#: 83 Filed: 09/25/20 Page 12 of 22 PageiD #:4384

violent with women.” Id. In the other incident, Carpenter allegedly told Boswell that he had
AIDS and was “ready to die” rather than die slowly from the disease. Id.
The state did not object prior to trial to the introduction of the beating of Boswell in
Atlanta as Lynch evidence. Id. And the trial court reserved judgment on whether the AIDSrelated testimony was Lynch evidence until trial. But Boswell was not called to testify at trial, so
the jury did not hear any Lynch evidence in support of Washington’s self-defense argument. The
state appellate court on direct appeal affirmed the granting of the motion in limine regarding the
home invasion, finding that it was not Lynch evidence because Carpenter was defending his
home from an intruder and thus it did not suggest a violent character. Direct Appeal, No. 1-091817, 2011 WL 9693712, at *10.
In his post-conviction petition, Washington raised a claim of ineffective assistance of trial
counsel based on his counsel’s failure to call Boswell as a witness regarding the Atlanta beatings
and Carpenter’s mindset regarding his AIDS. Post-Conviction Appeal, No. 2015 IL App (1st)
130064-U, 2015 WL 1514722, at *2. The claim was denied, and the appellate court affirmed the
holding that the failure to call Boswell had no impact on the trial because the evidence of
Washington’s guilt was overwhelming. Id. at *4.
Indeed, the eyewitnesses testified that Carpenter was unarmed when Washington
confronted him with a gun. While Washington claimed that the victim was actually armed, the
jury was entitled to believe the prosecution’s version of events and conclude that Washington
shot an unarmed man. The evidence supports that conclusion. Moreover, the state appellate court
was correct that introducing the Lynch evidence would have had no impact on the case due to the
overwhelming nature of the evidence. Thus, the state appellate court’s rejection of Washington’s
12

Case: l:12-cv-10236 Document#: 83 Filed: 09/25/20 Page 13 of 22 PagelD#:4385

ineffective assistance of counsel claim was not unreasonable under Strickland, and Claim Three
is denied.
IV.

Claim Four

Washington argues in Claim Four that his trial attorney was ineffective for failing to
investigate the paramedics and other first responders. Carpenter’s brother claims he first saw a
knife in Carpenter’s back pocket while he was being assisted by the paramedics. A knife was
also recovered by the police crime scene investigator. Washington believes that his attorney
should have inquired with the paramedics and other first responders whether they saw the victim
with a knife to bolster Washington’s self-defense argument.
This claim, however, is procedurally defaulted. The issue was first raised in
\

Washington’s post-conviction petition, but it was not included in Washington’s counseled postconviction appeal. (Dkt. No. 72-17.) He did attempt to raise the issue pro se in his post­
conviction appeal. (Dkt. No. 72-20.) And the state appellate court initially granted him leave to
file a pro se brief in addition to his counseled brief (Dkt. No. 72-24), but that request was later
vacated following opposition by the state (Dkt. No. 72-25, 72-26). Illinois law disfavors hybrid
representation, and a state appellate court’s denial of a pro se supplemental brief results in an
independent and adequate state ground of decision precluding habeas corpus review of the claim.
Clemons v. Pfister, 845 F.3d 816, 820 (7th Cir. 2017). Thus, the state appellate court’s denial of
Washington’s request to file his supplemental pro se brief results in the procedural default of the
claim.
Washington cannot excuse his default through cause and prejudice or based on a
fundamental miscarriage ofjustice. A finding of cause requires an ‘“objective factor, external to
13

Case: l:12-cv-10236 Document #: 83 Filed: 09/25/20 Page 14 of 22 PagelD #:4386

the defense that impeded [the petitioner’s] efforts to raise the claim in an earlier proceeding.’”
Weddington v. Zatecky, 721 F.3d 456, 465 (7th Cir. 2013) (quoting Smith v. McKee, 596 F.3d
374, 382 (7th Cir. 2010)). Examples of grounds for cause include: (1) interference by officials
making compliance impractical; (2) the factual or legal basis was not reasonably available to
counsel; or, (3) ineffective assistance of counsel. Guest v. McCann, 474 F.3d 926, 930 (7th Cir.
2007) (citing McCleskey v. Zant, 499 U.S. 467 (1991)). The first two types of cause are not
applicable here. And an ineffective assistance of counsel argument asserted to excuse a default
must, itself, be properly preserved in the state courts. Edwards v. Carpenter, 529 U.S. 446, 453
(2000); Smith v. Gaetz, 565 F.3d 346, 352 (7th Cir. 2009). Washington, however, has not
exhausted any ineffective assistance of counsel argument to excuse the default of this claim.
Although ineffective assistance of counsel is “a single ground for relief no matter how
many failings the lawyer may have displayed,” Pole v. Randolph, 570 F.3d 922, 934 (7th Cir.
2009) (citing Peoples v. United States, 403 F.3d 844, 848 (7th Cir. 2005)), Washington must
raise the particular factual basis for each aspect of the allegation of ineffective assistance of
counsel to avoid procedural default. Pole, 570 F.3d at 935 (citing Stevens v. McBride, 489 F.3d
883, 894 (7th Cir. 2007)). “A bare mention of ineffective assistance of counsel is not sufficient to
avoid a procedural default; [the petitioner] must have ‘identified the specific acts or omissions of
counsel that form the basis for [his] claim of ineffective assistance.’” Johnson v. Hulett, 574 F.3d
428, 432 (7th Cir. 2009) (quoting Momient-El v. DeTella, 118 F.3d 535, 541 (7th Cir. 1997)).
“[The petitioner] cannot argue one theory [of ineffective assistance of counsel] to the state courts
and another theory, based on different facts, to the federal court.” Johnson, 574 F.3d at 432
(citing Everett v. Barnett, 162 F.3d 498, 502 (7th Cir. 1998)). Accordingly, that the ineffective
14

Case: l:12-cv-10236 Document#: 83 Filed: 09/25/20 Page 15 of 22 PagelD #:4387

assistance of counsel claim constituting Claims One and Three are properly exhausted does not
excuse Washington’s default of Claim Four.
Moreover, Washington cannot argue that his post-conviction counsel’s failure to preserve
the claim on post-conviction appeal excuses the default. While the United States Supreme Court
in Martinez v. Ryan, 566 U.S. 1 (2012), and Trevino v. Thaler, 569 U.S. 413 (2013), permitted
ineffective assistance of post-conviction trial counsel to excuse a defaulted ineffective assistance
of trial counsel claim, such is not the case here, as the default arises from the failure to raise the
claim in a post-conviction appeal. Steward v. Gilmore, 80 F.3d 1205, 1212 (7th Cir. 1996)
(holding that ineffective assistance of post-conviction appellate counsel does not constitute cause
to excuse a default). And moreover, Martinez and Trevino are inapplicable to Illinois prisoners.
Crutchfield v. Dennison, 910 F.3d 968, 978 (7th Cir. 2018).
That leaves the fundamental miscarriage of justice (i.e., actual innocence) as the only
gateway to excuse Washington’s default. To show actual innocence, Washington must
demonstrate that ‘“in light of the new evidence, no juror, acting reasonably, would have voted to
find him guilty beyond a reasonable doubt.’” McQuiggins v. Perkins, 569 U.S. 383, 386 (2013)
(quoting Schlup v. Delo, 513 U.S. 298, 329 (1995)). This is a “demanding” and “seldom met”
standard. McQuiggins, 569 U.S. at 386 (citing House v. Bell, 547 U.S. 518, 538 (2006)).
Washington must present new, reliable evidence that was not presented at trial—such as
exculpatory scientific evidence, trustworthy eyewitness accounts, or critical physical evidence—
to make a credible claim of actual innocence. House, 547 U.S. at 537 (citing Schlup, 513 U.S. at
324); see also McDonald v. Lemke, 737 F.3d 476, 483—84 (7th Cir. 2013) (quoting Hayes v.
Battaglia, 403 F.3d 935, 938 (7th Cir. 2005) (“[Ajdequate evidence is ‘documentary, biological
15

Case: l:12-cv-10236 Document#: 83 Filed: 09/25/20 Page 16 of 22 PagelD #:4388

(DNA), or other powerful evidence: perhaps some non-relative who places him out of the city,
with credit card slips, photographs, and phone logs to back up the claim.’”)). Here, Washington
has offered no new evidence suggesting that he is actually innocent; on the other hand, the
evidence of his guilt at trial was overwhelming. See Hayes, 403 F.3d at 938 (“[I]t is black letter
law that testimony of a single eyewitness suffices for a conviction even if 20 bishops testify that
the eyewitness is a liar.”). The jury rejected Washington’s argument that Carpenter was armed,
instead crediting those witnesses who testified that Carpenter was unarmed.
Finally, even putting aside the default, Washington’s ineffective assistance of counsel
argument in Claim Four is meritless. He provides no evidence regarding what the investigation
of the paramedics would have revealed. Moreover, whatever information the paramedics might
have contributed would not change the fact that two eyewitnesses testified that Carpenter was
unarmed. The witnesses also saw Washington pull his gun while he was several feet away from
Carpenter, and Washington even conceded at trial that he was multiple feet away from Carpenter
and out of range of any possible thrust with a knife. For all of these reasons, Claim Four is
denied.
V.

Claim Five

With Claim Five, Washington contends that his trial counsel was ineffective for failing to
object to the improper statement in the post-mortem report. This claim is, of course, a variation
on Claim One, which challenged counsel’s failure to locate the improper material included in the
report. As explained above, counsel’s alleged failure did not result in ineffective assistance of
counsel due to the overwhelming nature of the evidence against Washington.

16

Case: l:12-cv-10236 Document#: 83 Filed: 09/25/20 Page 17 of 22 PagelD#:4389

Washington nonetheless argues that his counsel should have objected to the improper
material (assuming he found it) because it contained improper hearsay and its introduction
violated his confrontation rights. As with Claim Four, however, this claim was improperly raised
in Washington’s supplemental post-conviction pro se brief, which was rejected by the state
appellate court. (Dkt. No. 72-20 at 13; Dkt. No. 72-26.) And so, like Claim Four, Claim Five is
procedurally defaulted and Washington cannot excuse the default. Clemons, 845 F.3d at 820.
Moreover, as explained in Claim One, any error from the erroneous introduction of the
improper information in the report is harmless and so Washington cannot demonstrate ineffective
assistance of counsel. The evidence of Washington’s guilt is overwhelming and the improper
information in the report does not change that fact. Claim Five is denied.
VI.

Claim Six

Claim Six argues that trial counsel failed to investigate which jurors viewed the improper
material in the post-mortem report, and what impact it had on the verdict. Like with Claims Four
and Five, this claim was improperly asserted through Washington’s pro se supplement brief in
his postconviction appeal before the state appellate court. (Dkt. 72-20, pg. 19; Dkt. 72-26.)
Claim Six is procedurally defaulted, and Washington cannot excuse his default. Clemons, 845
F.3d at 820.
In any case, Washington cannot demonstrate the ineffectiveness of his attorney because
the evidence of his guilt was overwhelming. In Remmer v. United States, 347 U.S. 227 (1954),
the United States Supreme Court held that extrajudicial communication with jurors aimed at
influencing the jurors’ verdict may be presumed prejudicial. United States v. Gallardo, 497 F.3d
727, 735 (7th Cir. 2007) (citing Remmer, 347 U.S. at 229). But the Remmer presumption does
17

Case: l:12-cv-10236 Document#: 83 Filed: 09/25/20 Page 18 of 22 PagelD #:4390

not apply when, as here, the jurors simply received extraneous materials. Gallardo, 497 F.3d at
735. Without the Remmer presumption of prejudice, the Court returns to the analysis of Claim
One, recognizing that any improper material submitted to the jury was cured by the
overwhelming nature of Washington’s guilt. Even if the Remmer prejudice presumption did
apply, Remmer would still be subject to the substantial and injurious effect standard from Brecht
v. Abrahamson, 507 U.S. 619, 623 (1993), applied in habeas corpus cases, Hall v. Zenk, 692 F.3d
793, 805 (7th Cir. 2012), and any error would be cured by the overwhelming evidence of
Washington’s guilt.
In sum, Claim Six is procedurally defaulted, and even if it were not defaulted, it would be
properly denied as meritless.
VII.

Claim Seven

Washington argues in Claim Seven that his post-trial counsel was ineffective for failing
to raise his trial counsel’s alleged ineffectiveness during closing argument. But as with Claims
Four through Six, this claim was improperly asserted through Washington’s pro se supplement
brief in his postconviction appeal before the state appellate court. (Dkt. No. 72-20 at 21; Dkt. No.
72-26.) Claim Seven is thus procedurally defaulted, and Washington cannot excuse his default.
Clemons, 845 F.3d at 820. Moreover, as explained above with respect to Claim One, counsel was
not ineffective in his closing argument. And consequently, the new attorney who represented
Washington post-trial was not ineffective for failing to raise the issue in a post-trial motion.
Claim Seven is denied.

18

Case: l:12-cv-10236 Document #: 83 Filed: 09/25/20 Page 19 of 22 PagelD #:4391

VIII. Claim Eight
Claim Eight contains Washington’s argument that his attorney was ineffective for failing
to raise a claim for violation of Illinois Supreme Court Rule 431(b). That rule mandates that the
trial judge ask the jury venire during voir dire whether they understand and accept that: (1) the
defendant is presumed innocent of the charges against him; (2) the state has the burden of
proving the defendant guilty beyond a reasonable doubt; (3) the defendant is not required to offer
any evidence on his own behalf; and (4) the defendant’s failure to testify at trial cannot be held
against him. Illinois v. Thompson, 939 N.E.2d 403, 409 (Ill. 2010). Like Claims Four through
Seven, however, Claim Eight was improperly asserted through Washington’s pro se supplement
brief in his post-conviction appeal before the state appellate court and is thus procedurally
defaulted. (Dkt. No. 72-20 at 25; Dkt. No. 72-26.) Washington cannot excuse his default.
Clemons, 845 F.3d at 820.
In addition, any alleged failure to comply with Rule 431(b) would be subject to harmless
error review. Illinois v. Sebby, 89 N.E.3d 675, 693 (Ill. 2017); Illinois v. Glasper, 917 N.E.2d
401, 419 (Ill. 2009). When the evidence of a defendant’s guilt is overwhelming, a Rule 431(b)
error is considered harmless. Glasper, 917 N.E.2d at 419. That is the case here: any alleged Rule
431(b) violation in Washington’s case would have been harmless because the evidence of his
guilt was overwhelming. Claim Eight is denied.
IX.

Claim Nine

In Claim Nine, Washington asserts that his appellate counsel was ineffective for failing to
raise the various grounds of ineffective assistance of trial counsel asserted in the instant habeas
corpus petition. Again, this claim was improperly asserted through Washington’s pro se
19

Case: l:12-cv-10236 Document #: 83 Filed: 09/25/20 Page 20 of 22 PagelD #:4392

supplement brief in his postconviction appeal before the state appellate court and is thus
procedurally defaulted (Dkt. No. 72-20 at 28; Dkt. No. 72-26), with no apparent basis to excuse
his default. Clemons, 845 F.3d at 820. Moreover, as explained above, Washington cannot
demonstrate the ineffective assistance of his trial counsel, and consequently, his appellate
counsel cannot be faulted for failing to raise such an argument. Accordingly, Claim Nine is
denied.
X.

Claim Ten

Lastly, in Claim Ten, Washington alleges that he was indicted under a 1992 murder
statute that was no longer in effect at the time of his indictment in 2006. For this reason,
Washington believes the state trial court lacked subject-matter jurisdiction to hear his criminal
case. Alternatively, he contends that the trial court could not impose the sentencing enhancement
of twenty-five additional years based on personally discharging the firearm that killed the victim.
Washington argues that his trial lawyer was ineffective for failing to raise these issues.
The indictment charges Washington with violations of the “Illinois Complied Statutes
1992 as Amended.” (Dkt. No. 72-1 at 22-31.) In 1992, the Illinois General Assembly replaced
the Illinois Revised Statutes with the Illinois Compiled Statutes. See Alvarado v. Lashbrook, No.
2018 IL App (5th) 170278-U, 2018 WL 53114^7, at *2 (Ill. App. Ct. Oct. 24, 2018). The change
updated the organization and numbering of the statutes but did not repeal any provision. Id.
Thus, Washington’s argument that a prior statute had been repealed and so he was charged under
a non-existent law is incorrect. Id. Additionally, even if he were charged under a prior statute,
there is no prejudice to him as the murder statute remained the same. Id. Washington also argues

20

Case: l:12-cv-10236 Document #: 83 Filed: 09/25/20 Page 21 of 22 PagelD #:4393

that the twenty-five year enhancement was not in place. But that is incorrect, as the enhancement
is contained at 735 ILCS 5/5-8-l(d)(iii).
As Washington’s underlying arguments are meritless, his lawyer was not ineffective for
failing to raise them. Claim Ten is thus denied. Furthermore, as Washington has failed to present
a meritorious claim on any of the ten bases presented in his petition, his request for habeas
corpus relief is denied.
CONCLUSION
For the reasons stated above, Washington’s petition for federal habeas corpus relief (Dkt.
Nos. 1, 34) is denied. The Court declines to issue a certificate of appealability, as Washington
cannot make a substantial showing of the denial of a constitutional right or that reasonable jurists
would debate, much less disagree, with this Court’s resolution of his claims. Arredondo v.
Huibregtse, 542 F.3d 1155, 1165 (7th Cir. 2008) (citing 28 U.S.C. § 2253(c)(2)); Slack v.
McDaniel, 529 U.S. 473, 484 (2000). The Clerk will enter judgment in favor of the respondent
and against Washington.
Washington is advised that this is a final decision ending his case in this Court. If he
wishes to appeal, he must file a notice of appeal in this Court within 30 days of the entry of
judgment. See Fed. R. App. P. 4(a)(1). He need not bring a motion to reconsider this Court’s
ruling to preserve his appellate rights. However, if he wishes the Court to reconsider its
judgment, he may file a motion under Federal Rule of Civil Procedure 59(e) or 60(b). A Rule
59(e) motion must be filed within twenty-eight days of the entry of judgment, see Fed. R. Civ. P.
59(e), and suspends the deadline for filing an appeal until the Rule 59(e) motion is ruled upon.
See Fed. R. App. P. 4(a)(4)(A)(iv). A Rule 60(b) motion must be filed within a reasonable time
21

Case: l:12-cv-10236 Document #: 83 Filed: 09/25/20 Page 22 of 22 PagelD #:4394

and, if seeking relief under Rule 60(b)(1), (2), or (3), must be filed no more than one year after
entry of the judgment or order. See Fed. R. Civ. P. 60(c)(1). A Rule 60(b) motion suspends the
deadline for filing an appeal until the Rule 60(b) motion is ruled upon only if filed within
twenty-eight days of the entry of judgment. See Fed. R. App. P. 4(a)(4)(A)(vi). Neither the time
to file a Rule 59(e) motion nor the time to file a Rule 60(b) motion can be extended. See Fed. R.
Civ. P. 6(b)(2).
ENTERED:

Andrea R. Wood
United States District Judge
Date: September 25, 2020

22

ilnd450(Rev.Document#:

84 Filed: 09/25/20 Page 1 of 1 PagelD #:4395

IN THE UNITED STATES DISTRICT COURT
FOR THE
NORTHERN DISTRICT OF ILLINOIS
Robert Washington,
Petitioner,
Case No. l:12-cv-10236
Judge Andrea Wood

v.
David Gomez,
Respondent.

JUDGMENT IN A CIVIL CASE
Judgment is hereby entered (check appropriate box):
I I

in favor of plaintiff(s)
and against defendant(s)
in the amount of $
which O includes
pre-judgment interest.
I I does not include pre-judgment interest.

Post-judgment interest accrues on that amount at the rate provided by law from the date of this judgment.
Plaintiffs) shall recover costs from defendant(s).

I I

in favor of defendant(s)
and against plaintiffs)

Defendant(s) shall recover costs from plaintiffs).

ESI

other: In favor of Respondent David Gomez and against Petitioner Robert Washington.

This action was (check one):
I I tried by a jury with Judge
presiding, and the jury has rendered a verdict.
I I tried by Judge
without a jury and the above decision was reached,
^decided by Judge Andrea Wood on a petition for writ of habeas corpus.

Date: 9/25/2020

Thomas G. Bruton, Clerk of Court
David Lynn , Deputy Clerk

0

V

IN THE CIRCUIT COURT OF COOK COUNTY, ILLINOIS
COUNTY DEPARTMENT, CRIMINAL DIVISION
)
)

PEOPLE OF THE STATE OF ILLINOIS,
Plaintiff-Respondent,
-vsROBERT WASHINGTON,
Defendant-Petitioner.

^fTTITllWl
■CR-

)
)
)
)
)
)
)
)
)
)

3

NOV 0 2 2012

Post-Conviction
06CR23271

Hon. Stanley J. Sacks
Judge Presiding

ORDER

Petitioner, Robert Washington, seeks post-conviction relief from the judgment of
conviction entered against him on September 6, 2012. Following a jury trial, petitioner
was found guilty of committing first degree murder in which he personally discharged a
firearm in violation of sections 9-1 Illinois Criminal Code, 720 ILCS 5/9-1 (A) (1) and
was subsequently sentenced to a 50 year term of imprisonment for first degree murder,
which sentence included a twenty-five year enhancement for personally discharging a
firearm causing tire death of the victim. As grounds for relief, petitioner claims: that (1)
trial counsel was ineffective for failure to investigate paramedics and first responders
initially at scene; (2) trial counsel was ineffective for failure to post-mortem report (sic)
which contained prejudicial hearsay evidence which impacted right to confront witnesses
against him; (3) trial counsel was ineffective for promising to present mitigating evidence
during opening statements and failing to do so when such evidence or witnesses was

|

reasonably available; (4) trial counsel failed to conduct investigation into jurors to learn
whether other jurors (11) had read the inadmissible evidence or was aware of its content
during deliberations despite promise to do so...lessened the burden of proof, on the
mitigating factors absence [or] invaded the jury deliberation process (sic); (5) post-trial
counsel was ineffective for failure to raise in supplemental motion for new trial that trial
counsel was ineffective during closing arguments to avoid wavier on appeal; (6) trial
counsel was ineffective for failure to object to and raise in post-trial motion that the
Honorable Court admonishing or questioning of potential jurors was incomplete where
the jurors were not asked if they understood and accepted all the principles of Ill. Sup. Ct.
Rule 431 (b); (7) appellate counsel was ineffective for failure to raise claims (I) thru (IV,
VI) which were not outside the record on appeal or implicate fundamental fairness (sic);
(8) appellate counsel was ineffective on direct appeal for failure to challenge the court’s
imposition of the twenty five year enhancement for personally discharging a firearm
causing the death of the victim.

BACKGROUND
At trial, Vivian Shields testified that, on September 17, 2006, she lived on the
second floor of an apartment building at 5310 South Wolcott Avenue. Karen Johnson
lived on the first floor. On that day, defendant drove Ms. Shields and Ms. Johnson to two
grocery stores and a liquor store. Ms. Shields did not see a gun on defendant at that time.
After they finished shopping, they returned to the apartment building and Ms. Shields
fried some shrimp. Ms. Shields then went outside the apartment building, where she
stood talking to defendant, Ms. Johnson, and another resident of the building, Mignon
Boswell.

2

Ms. Shields testified that, during this conversation, defendant told her he liked her
breasts.

Then he stated he wanted to have sex with Ms. Boswell.

Ms. Boswell’s

boyfriend, Ricky Carpenter, (the victim), walked in on the conversation. Upon hearing
defendant’s comments, he told defendant not to “disrespect” Ms. Boswell. Defendant
and the victim began arguing. The victim picked up a crate and threatened to “bust”
defendant’s face. He also threw beer in defendant’s face. Ms. Boswell and Ms. Johnson
took the crate from the victim, and then Ms. Boswell escorted the victim upstairs. As
they were going upstairs, the victim hollered that he would be back because he had
“something” for defendant. Ms. Shields testified that, during this entire argument, she
did not see defendant in possession of a gun.
Ms. Shields testified that after the victim went upstairs, defendant remained
outside and talked to someone on his cell phone. After he got off the phone, defendant
told Ms. Shields and Ms. Johnson that the victim was going to get “his ass whooped.”
Defendant then walked to his car, which was parked in front of the apartment building,
and drove away. Ms. Shields remained outside and later saw that defendant had returned
and was walking around the side of the apartment building.

The victim’s brother,

Michael Carpenter, pulled up in his car and exited the vehicle. Around this time, the
victim began walking down the stairs. Ms. Shields saw Mr. Carpenter put his arm around
defendant, and they began walking together.
Ms. Shields testified that the victim began hollering at defendant from inside the
apartment building. Defendant looked back over his shoulder and warned the victim
against running up behind him. Defendant then pulled a gun from his pocket. Ms.
Shields did not see a gun or knife in the victim’s hand. After defendant pulled out the

3

gun, Ms. Shields ran inside Ms. Johnson’s apartment. Ms. Shields testified she heard two
gunshots, but she did not see who fired the gun.
Patricia Carpenter, the victim’s sister, testified that, on the afternoon of September
17, 2006, she received a call from Ms. Boswell concerning the victim. Ms. Carpenter
then called the victim’s brother, Michael Carpenter, and asked him to check on the
victim.
Michael Carpenter testified that, on September 17, 2006, he was at home
watching television, when his sister called approximately 3 p.m. After speaking with his
sister, Mr. Carpenter drove to 5310 South Wolcott Avenue, where his brother (the victim)
was living with Ms. Boswell. Mr. Carpenter exited his car and saw defendant, a friend of
his who he had known for seven or eight years, standing on the sidewalk in front of the
apartment building. Defendant was yelling at the victim, who was at a window inside the
building. Mr. Carpenter put his arms around defendant and tried to calm him down by
telling him the victim was his brother.
Mr. Carpenter testified that, as he was putting his arm around defendant, he saw a
handle of a gun in the waist area of defendant’s pants. Mr. Carpenter and defendant
walked toward a vacant lot on the side of the apartment building. At this point, the
victim came down the stairs and was standing in the first-floor hallway. Defendant and
the victim looked at each other and continued arguing, and then defendant walked into
the hallway. Mr. Carpenter followed.
Mr. Carpenter testified that when defendant stepped into the hallway, he pulled
the gun out of his waist and held it in his hand. The victim was unarmed. The victim
told defendant he did not care whether defendant had a gun. Defendant responded by

4

threatening to shoot the victim. Defendant then leaned over and fired one shot into the
victim’s leg. The victim stumbled toward a wall and grabbed his leg. As the victim was
slumped against the wall, defendant fired another shot at him and exited the building.
The victim reached for his stomach. Ms. Boswell came downstairs, and Mr. Carpenter
told her to call the police. When paramedics arrived, they rolled the victim over to
examine his wounds. When they rolled the victim over Mr. Carpenter saw, for the first
time, that he had a knife in his back pocket.
Officer Patrick Doyle, an evidence technician with the forensics unit, testified that
he arrived at the scene of the shooting at approximately 3:30 p.m. on September 17,
2006. Officer Doyle took photographs of the scene and recovered a stainless steel knife
from the hallway floor. The knife was approximately one-foot away from blood on the
hallway floor. There was no blood on the knife.
Officer Thomas Kelly testified he arrived at the scene of the shooting at
approximately 3:30 p.m. on September 17, 2006. After learning that the victim already
had been taken to the hospital, Officer Kelly spoke with Mr. Carpenter and Ms. Boswell.
After speaking with them, Officer Kelly began looking for a man named Dion
Washington. Officer Kelly later spoke with Ms. Johnson, who told him that Dion was a
nickname, and that Mr. Washington’s real first name was Robert. Officer Kelly then put
together a photo array. When Officer Kelly began his work shift the next day, he learned
the victim had died. Mr. Carpenter came to the police station and Officer Kelly showed
him the photo array. Mr. Carpenter identified defendant as the person who had shot the
victim. Officers arrested defendant on September 19, 2006.

5

Assistant Cook County Medical Examiner, Dr. Ponni Arunkumar, testified she
performed an autopsy of the victim’s body on September 19, 2006.

Dr. Arunkumar

found the victim had sustained two gunshot wounds, one to the left knee and one to the
abdomen.

There was no evidence the shots had been fired at close range.

Dr.

Arunkumar opined that the cause of death was multiple gunshot wounds, and the manner
of death was homicide.
Defendant testified that, on September 17, 2006, he drove Ms. Shields and Ms.
Johnson to the grocery store. After they returned to the apartment building at 5310 South
Wolcott Avenue, defendant helped them put away the groceries and then he went outside.
Defendant was wearing baggy jeans and a long-sleeved shirt and he carried a .357
revolver in his right pocket. Defendant sat outside in front of the apartment building with
Ms. Shields, Ms. Johnson, and Ms. Boswell. Defendant commented on Ms. Shield’s
breasts. Defendant also told Ms. Boswell he had wanted to have sex with her when he
was younger.
Defendant testified that the victim walked in on the conversation and overheard
his comments to Ms. Boswell that he had wanted to have sex with her. The victim told
him to stop disrespecting her. Defendant apologized to Ms. Boswell. The victim began
swearing and walked toward defendant. Ms. Johnson and Ms. Boswell got between
them. The victim threw a beer at defendant, picked up a crate, and threatened to “bust”
his face. Ms. Boswell took the crate away from the victim and then walked with the
victim up the stairs. As they were going upstairs, the victim told defendant he would be
right back because he had “something” for defendant.

6

Defendant testified he called Ms. Boswell’s brother and told him what had
occurred. After he hung up the phone, defendant told Ms. Johnson and Ms. Shields that
his “boy” was on his way to “kick” [the victim’s] ass.” Then defendant went to his car
and drove it around the corner because he was concerned the victim might try to
vandalize it in retaliation for defendant’s comments to Ms. Boswell.
Defendant testified that, after parking the car, he started walking back toward the
apartment building. As he was walking, defendant heard a car pull up and saw Michael
Carpenter exit the vehicle. Defendant walked up to Mr. Carpenter, who put his arm
around defendant and asked him what was happening. While defendant was telling Mr.
Carpenter what had happened, Mr. Carpenter turned around and said to somebody,
“Don’t run up on him yet.” Defendant pushed Mr. Carpenter away, turned around, and
saw the victim in the doorway of the apartment building. Defendant then reached into his
pocket and pulled out his gun.
Defendant testified he saw the victim moving toward him in “a sneak mode” with
“a shiny object pointing in his right hand.” Defendant believed the object was a knife, so
he fired his gun. Defendant testified he aimed the gun “at the floor” in an attempt to “hit
him anywhere below the waist” in order to stop him from advancing. Defendant then
saw Mr. Carpenter running toward defendant’s car.

Defendant “shot off and ran.”

Defendant admitted after he was arrested, that he gave police “quite a few stories” in
which he denied the shooting, and he never told them the version of events he testified to
in court. Defendant testified he gave police a number of stories and denied the shooting
because he did not trust the police.

7

On cross-examination, defendant testified that when he first saw the victim with
the shiny object in his right hand, he was about six to eight-feet away. As the victim
began walking toward him, defendant fired two shots at him. Defendant admitted that, at
the time of the shooting, the victim was “not standing right up on [him] with the knife”
and from where the victim was located, he could not have poked defendant with the
knife. Defendant testified, though, that at the time of the shooting, he felt an immediate
threat because, not only was the victim advancing on him with an object he believed to
be a knife, but the victim’s brother Mr. Carpenter also was standing next to him.
Defendant feared Mr. Carpenter might hold him until the victim was able to stab him.

PROCEDURAL HISTORY
A direct appeal was taken to the Illinois Appellate Court, First Judicial District.
Petitioner alleged that: (1) his trial counsel provided ineffective assistance; (2) his
conviction should be reduced to second- degree murder; and (3) the circuit court erred by
granting the State’s motion in limine to preclude him from introducing evidence of the
victim’s allegedly aggressive and violent character. His conviction and sentence were
affirmed on April 25, 2011. People v. Washington, No. 1-09-1817 (2011) (unpublished
order under Rule 23).
Petition for leave to appeal denied. People v. Washington, 955 N.E.2d 479, 2011
Ill. Lexis 1560, 353 Ill. Dec. 12 (2011)
Petitioner has not sought certiorari in the United States Supreme Court.

8

ANALYSIS
The instant petition was filed on September 6, 2012, and is before the court for an
initial determination of its legal sufficiency pursuant to Section 2.1 of the PostConviction Hearing Act. 725 ILCS 5/122-2.1 (West 2022); People v. Holiday, 313 Ill.
App.3d 1046, 1048, 732 N.E.2d 1, 2 (2000). A post-conviction petition is a collateral
attack on prior judgment, People v. Simms, 192 I11.2d 348, 359, 736 N.E.2d 1092, 1105
(2000), and is limited to constitutional issues which were not and could not have been
raised on direct appeal. People v. King, 192 Ill.2d 189, 192, 735 N.E. 2d 569, 572
(2000). Where the petitioner raises non-meritorious claims, the court may summarily
dismiss them. People v. Richardson, 189 I11.2d 401, 407, 727 N.E.2d 362, 367 (2000).
Under the Act, a petitioner enjoys no entitlement to ah evidentiary hearing.
People v. Cloutier, 191 IU.2d 392, 397, 732 N.E.2d 519, 523 (2000). In order to obtain a
hearing, the petitioner has the burden of establishing that a substantial violation of his
constitutional rights occurred at trial or sentencing. People v. Johnson, 191 I11.2d 257,
268, 730 N.E. 2d 1107, 1111 (2000). However, a pro se post-conviction petition may be
summarily dismissed as frivolous or patently without merit during the first stage of post­
conviction review unless the allegations in the petition, taken as true and liberally
construed, present the “gist” of a valid constitutional claim. People v. Edwards, 197 Ill.
2d 239, 244 757 N.E.2d 442, 445 (2001).
Further, a post-conviction proceeding is not a direct appeal, but rather is a
collateral attack on prior judgment. People v. Barrow, 195 Ill.2d 506, 519, 749 N.E.2d
892, 901 92001). Therefore, the issues raised on post-conviction review are limited to
those that could not be on were not previously raised on direct appeal or in prior post-

9

conviction proceedings. People v. McNeal, 195 Ill.2d 135, 140, 742 N.E. 2d 269, 272
(2001).
In examining petitioner’s claims of ineffective assistance of counsel, this court
follows the two-pronged test of Strickland v. Washington, 466 U.S. 668, 687, 80 L. Ed.2d
674, 693, 104 S. Ct. 2052, 2064 (1984). Under this standard, petitioner must show that
counsel’s representation fell below an objective standard of reasonableness, and that
because of this deficiency, there is a reasonable probability that counsel’s performance
was prejudicial to the defense. . People v. Hickey, 204 I11.2d 585, 613, 792 N.E.2d 232,
251 (2001).

“Prejudice exists when ‘there is a reasonable probability that, but for

counsel’s unprofessional errors, the result of the proceeding would have been different.’”
People v. Erickson, 183 I11.2d 213, 224, 700 N.E.2d 1027, 1032 (1998) (citations
omitted).

A petitioner’s failure to make the requisite showing of either deficient

performance or sufficient prejudice defeats a claim of ineffectiveness. People v. Morgan,
187 I11.2d 500, 529-30, 719 N.E.2d 681, 698 (1999).
Significantly, effective assistance of counsel in a constitutional sense means
competent, not perfect, representation. People v. Easley, 192 I11.2d 307, 344, 736 N.E.2d
975, 999 (2000).

Notably, courts indulge in the strong presumption that counsel’s

performance fell within a wide range of reasonable professional assistance. Strickland,
466 U.S. at 690, 80 L. Ed.2d at 695, 104 S. Ct. at 2066; People v. Edwards, 195 I11.2d
142, 163, 745 N.E.2d 1212, 1223 (2011). Moreover, “the fact that another attorney might
have pursued a different strategy is not a factor in the competency determination.”
People v. Palmer, 162 Ill.2d 465, 476, 643 N.E.2d 797, 802 (1995) (citing People v.
Hillenbrand, 121 IU.2d 537, 548, 521 N.E.2d 900, 904 (1988).

10

Further counsel’s strategic decisions will not be second-guessed.

Indeed, to

ruminate over the wisdom of counsel’s advice is precisely the kind of retrospection
proscribed by Strickland and its progeny. See Strickland, 466 U.S. at 689, 80 L. Ed.2d at
694, 104 S. Ct. at 2065 (“[a] fair assessment of attorney performance requires that every
effort be made to eliminate the distorting effects of hindsight”); see also People v. Fuller,
205 Ill.2d 38, 331, 793 N.E.2d 526, 542 (2002) (issues of trial strategy must be viewed,
not in hindsight, but from the time of counsel’s conduct, and with great deference
accorded counsel’s decisions).
A court need not consider whether counsel’s performance was deficient prior to
examining the prejudice suffered by the defendant as a result of the alleged deficiencies.
Strickland, 466 U.S. at 697, 104 S. Ct. at 2069. Where ineffectiveness can be disposed of
on the ground that the defendant did not suffer sufficient prejudice, the court need not
determine whether counsel’s performance constituted less than reasonably effective
assistance. People v. Flores, 153 I11.2d 264, 283-284, 606N.E.2d 1078, 1087 (1992).

Claim I
Petitioner claims that his privately retained counsel was ineffective where he
failed to investigate paramedics and first responder initially at scene.
“When the defendant attacks the competency of his counsel for failing to call or
contact witnesses, he must attach to his post-conviction petition affidavits showing the
potential testimony of such witnesses and explain the significance of their testimony.”
People v. Roberts, 318 Ill. App.3d 729, 723, 743 N.E.2d 1025, 1028 (1st Dist. 2000). In
the instant matter, petitioner has not made the requisite factual showing. Petitioner has

11

failed to submit an affidavit from the (unknown) paramedics and /or (unknown) first
responders, (see para. 28, p. 14, P.C.) Additionally, petitioner has failed to explain, other
than by speculation, the significance of this testimony. Therefore, this claim that counsel
was ineffective for failing to contact and/or call the proposed witnesses must fail.

Claim II and IV
On direct appeal petitioner contended that his trial counsel committed ineffective
assistance by failing to inspect the post-mortem examination report and discover the
investigator’s report attached thereto, and second, that he was prejudiced thereby.
In affirming petitioner’s conviction and sentence, the appellate court rejected
petitioner’s ineffective assistance claim.
“Counsel’s failure to examine the post-mortem examination report and discover
the investigator’s report attached thereto did not constitute ineffective assistance under
Strickland.” People v. Washington, 1-09-1817 (2011) (unpublished order under Rule 23)
at pages 9-10.
....issues raised on post-conviction review are limited to those that could not or
were not previously raised on direct appeal or in prior post-conviction proceedings.
People v. McNeal, 194 I11.2d 135, 140, 742 N.E.2d 269, 272 (2001).
Petitioner cannot avoid the bar of res judicata by simply rephrasing or expanding
issues previously raised on direct appeal. People v. Simms, 192 Ill.2d 248, 360, 736
N.E.2d 1092 (2000).

The Appellate Court ruled adversely to Washington on direct

appeal. These issues are barred by res judicata and cannot be re-litigated in this post­
conviction petition.

12

Claim III
Petitioner claims that his privately retained counsel was ineffective for promising to
present mitigating evidence during opening statement 1 and failing to do so when such
evidence or witnesses was reasonable (sic) available.
Petitioner maintains that his trial counsel was ineffective, in part at least, for not
presenting mitigating (Lynch) evidence at trial that: (1) on September 9, 2006 the victim
and someone named Kejuan Sykes got into an argument, because Sykes tried to get into
the defendant’s apartment (thru a window) to retrieve a jacket and that the defendant got
a frying pan and a knife to prevent that from happening. Sykes was not struck with either
the frying pan or knife, and he eventually left. Upon the State’s Motion in Limine the
then trial judge (J. Claps) ruled that evidence was not admissible .as Lynch material; (2)
that the victim had A.I.D.S. Judge Claps ruled that the A.I.D.S. evidence was irrelevant
and not proper Lynch material. (Pre-trial hearing, Judge Joseph Claps, July 15, 2008).
Additionally, (3) petitioner maintains his trial counsel was ineffective for not
calling Mignon Boswell to testify that the victim had “unlawfully restrained Boswell in a
room and beat her for a period of three days........”
A claim, that counsel failed to investigate and call a witness (Mignon Boswell) must
be supported by an affidavit from the proposed witness. People v. Palmer, 352 Ill.
App.877, 885 (2004). (citing People v. Enis, 194 I11.2d 361, 380 (2000)). Without such
an affidavit, petitioner’s mere allegation that had Boswell would testify “that she was
unlawfully restrained in a room and beat for a period over three days”, and this evidence
would have provided Lynch evidence and possibly changed the outcome of the trial, is

1 Washington has not attached the opening statement made by his trial counsel. Additionally opening
statements are not evidence and the jury was so advised.

13

mere speculation, and more precisely, what petitioner wished Boswell would say. People
v. Harris, 224 I11.2d 115, 142 (2007).
Assuming, for the sake of argument that Boswell would have testified in accordance
with petitioner’s representation, a rather large assumption, trial counsel’s failure to call
Boswell would be harmless given the “overwhelming evidence of defendant’s guilt of
first degree murder.” People v. Washington, 1-09-1817 (2011) (Rule 23 order, page 18).
The trial court’s ruling in reference to points (1) and (2) are matters of record and
could have been raised on direct appeal, and are .thusly forfeited. People v. Jones, 211
I11.2d 140, 809 N.E.2d 1233 (2004); c.f. People v. Petrenko, 237 I11.2d 490, 499, 931
N.E.2d 1198 (2010). Petitioner’s claim regarding the Kejuan Sykes incident was raised
on direct appeal and is barred by res judicata. People v. Ligon, 239 Ill.2d 94, 103, 940
N.E.2d 1067(2010).
Claim V
Petitioner claims that post-trial counsel was ineffective for failure to raise in a
supplemental motion for new trial that trial counsel was ineffective during closing
arguments to avoid wavier on appeal.
Even though post-trial counsel made no claim regarding trial counsel’s alleged
ineffectiveness during closing argument, thus waiving the issue, the appellate court chose
to address the issue on the merits. The appellate court reviewed in detail (pp. 11-14
opinion) the closing argument by trial counsel and concluded: “on the record before us,
review of the entirety of defense counsel’s closing arguments reveals no ineffective
assistance.” (p. 14-opinion). Thusly, this claim fails.

14

Claim VI
According to petitioner, trial counsel was ineffective for failure to object to and
raise in post-trial motion that trial courts’ admonishments under Ill. S. Ct. Rule 431 (b)
were defective where the jurors were not asked if they understood and accepted all the
principles.
A court may not engage in any fact-finding and must accept all well-pled facts as
true. People v. Jones, 399 Ill. App.3d 341, 927 N.E.2d 710 (1st Dist. 2010). However,
the court is not required to accept as true any factual allegation that is rebutted by the
record. People v. Hall, 217 I11.2d 324, 335, 841 N.E.2d 913 (2005).
Petitioner has not attached any supporting documentation to establish that the trial
court failed to comply with the mandate of Ill. Sup. Ct. Rule 431 (b) as set forth in People
v. Zehr, 103 I11.2d 472 (1984). Petitioner alleges in his Claim VI that “his recall does not
reflect that the transcripts would rebut that the jurors were not asked whether they
understood and except each principle (or] that all principles were mentioned in that
context described by the rule by the Honorable Court.”
Petitioner concludes that the record ‘does not “positively rebut” this factual

2

assertion.’
Assuming arguendo 3 that there was a Rule 431 (b) violation, such a violation does
not require automatic reversal. People v. Thompson, 238 Ill.2d 598 (2010).

In the

context of Washington’s case and the overwhelming evidence presented against him, the

2 His unsupported, conclusory allegation.
3 Petitioner has not established such a violation.

15

error, if any was. harmless. In the instant case, the trial court did inform the jury of all of
the Zehr principles during the jury instructions after the close of all the evidence. 4
Trial counsel was not ineffective for not preserving any alleged 431 (b) violation,
since there wasn’t any violation. Appellate counsel was not ineffective for raising a nonmeritorious claim. In view of the overwhelming evidence of guilt petitioner suffered no
prejudice even if there was a Rule 431 (b) violation, which as this Court indicated earlier
in footnote 4, there was not. Petitioner has failed to produce any evidence that he was
tried before a biased jury.
Petitioner’s claim is meritless.
Claim VII
Petitioner claims that appellate counsel was ineffective for failing to raise those
issues set forth in claims: I, IV, VI, and VIII. It is axiomatic that a criminal petitioner is
guaranteed the effective assistance of counsel on appeal. Evits v. Lucey, 469 U.S. 387,
396-97, 83 L.Ed.2d 821, 829-30, S. Ct. 830, 836-37 (1985).

However, effective

assistance in a constitutional sense means competent, not perfect representation. People
v. Easley, 1922 I11.2d 37, 736 N.E.2d 975, 999 (2000). In assessing claims of ineffective
assistance of appellate counsel, the court follows the two-pronged test of Strickland v.
Washington, 466 U.S. 687, 688, 80 L. Ed.2d 674, 693, 104 S. Ct. 2052, 2064 (1984).
Under this standard, the petitioner must show that counsel’s representation fell below an
objective standard of reasonableness, and that, but for this deficiency, there is a

4 The defendant testified. Therefore the court did not advise the jurors regarding the defendant’s failure to
testify instruction at the time. (I.P.I. 2.04) The record will reflect that the court did comply with Supreme
Court Rule 431 (b) during voir dire and did ask the jurors if they understood and accepted each of the four
required Zehr questions.

16

reasonable probability that counsel’s performance was prejudicial to the defense. People
v. Alb cine se, 104 I11.2d 504, 525-26, N.E.2d 1246, 1255 (1984).
To succeed on a claim of ineffective assistance of appellate counsel, petitioner must
show that the failure to raise a particular issue was objectively unreasonable and that his
appeal was prejudiced by the omission. People v. Smith, 195 Ill.2d 179, 745 N.E.2d 1194
(2000). “Appellate counsel is not obligated to brief every conceivable issue on appeal,
and it is not incompetence of counsel to refrain from raising issues which, in his or her
judgment are without merit, unless counsel’s appraisal of the merits is patently wrong.”
People v. Easley, 192 I11.2d 307, 329, 736 N.E.2d 975, 991 (2000). Thus, petitioner has
not suffered prejudice from appellate counsels’ decision not to raise certain issues on
appeal unless such issues were meritorious. Easley, 192 Ill.2d at 329, 736 N.E.2d at 991
(2000).

Here, the court declines to deem “patently erroneous” appellate counsel’s
assessment of the record and decision not to raise the issues of ineffectiveness set forth in
claims I, IV, VI and VIII. Moreover, petitioner has failed to establish that had appellate
counsel raised the listed issues his conviction or sentence would have been reversed. “A
petitioner’s failure to make the requisite showing of either deficient performance or
sufficient prejudice defeats an ineffectiveness claim;” People v. Palmer, 162 Ill.2d 465,
475-76, 643 N.E.2d 797 (1994) (emphasis added)
Because the court has determined that the underlying claims of ineffectiveness lack
support, petitioner’s claim of ineffective assistance of appellate counsel likewise is
without merit. People v. Johnson, 183 Ill.2d 176, 187 (1998).

17

Claim VIII
Petitioner alleges (by way of supplemental filing) that appellate counsel was

I
!
!

ineffective for not challenging the trial court’s imposition of a twenty-five year (25)
enhancement to his sentence for murder.
!

Appellate counsel was not ineffective for failure to raise any issue concerning the
twenty-five (25) year sentencing enhancement. The twenty-five year enhancement for
murder with a firearm is constitutional. People v. Sawczento - Dub, 345 Ill. App.3d 522
(1st Dist. 2003); see also People v. Foreman, 361 Ill. App.3d 136 (1st Dist. 2005)
(additional citations omitted).. Appellate counsel is not required to raise non-meritorious
issues.
CONCLUSION

‘ •

Base on the foregoing discussion, the court finds that the issues raised and
presented by petitioner are frivolous and patently without merit.

Accordingly, the

petition for post-conviction relief is hereby dismissed. People v. Hodges, 234 I11.2d 1
(2009).
Petitioner’s Motion for Appointment of Counsel is Denied as is his Application to
Sue or Defend as a Poor Person.

..I!SB

c
i.

iMUlS? 4. SACKS-

'«W 0 2.

DATED:

Ml ~

I
1

ENTERED:
1

^1% l

Judge StanleyO. Sacks
Circuit Court of Cook County
Criminal Division

—

18

i

5

W

f,___ fit

"G
RECEIVED OCI - 9 W&

[8-

W.. STATE OF ILLINOIS /JP

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721

September 30,2015

W$3Ll
Mr. Robert Washington
Reg. Nov M-06106
Menard Correctloni renter
P.O. Box 1000
Menard, IL 62259

No. 119596

- People State of Illinois, respondent, v. Robert Washington, petitioner. Leave to
appeal, Appellate Court, First District.

The Supreme Court today DENIED the petition for leave to appeal in the above entitled cause.
The mandate of this Court will issue to the Appellate Court on November 4,2015.

Additional material
from this filing is
available in the
Clerk's Office.

